March 17, 2004

MEMORANDUM
FOR: 	         USAID Mission for Ukraine, Belarus and Moldova, Mission
               Director, Christopher Crowley

FROM:          Regional Inspector General/Budapest, Nancy J. Lawton /s/

SUBJECT:	      Audit of USAID Mission for Ukraine, Belarus and Moldova’s
               Management of U.S. Personal Services Contractors
               (Report No. B-121-04-003-P)


This is our final report on the subject audit. We reviewed your comments on
our draft report, made changes where appropriate, and included your comments
in Appendix II. We have also adjusted some of the report language in response
to comments from our headquarters staff.

This report contains three recommendations to improve the Mission’s
management of U.S. personal services contractors. In your written comments,
you concurred with these recommendations and our estimate of $17,000 in cost
savings related to Recommendation No. 2. Furthermore, you identified and
documented specific actions taken to address our concerns. Therefore, we
consider that final action has been taken on all recommendations.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                   1

(This Page Intentionally Left Blank)




                                       2

Table of 
   Summary of Results…………………………………… .…………………………...5
Contents 

             Background………………………………………………………………….… ......5 


             Audit Objectives……………………………….. ..…………………….…………..6 


             Audit Findings……………………………………………………… ….……….....6 


                 Did USAID/WNIS determine its requirement for U.S. personal services
                 contractors in accordance with USAID policies and procedures?……..….…6

                      USAID/WINS Needs to Document 

                      Its Assessment of Recruitment Options……......………..….………….8 


                 Did USAID/WNIS award U.S. personal services contracts in accordance 

                 with selected USAID policies and procedures?………………………..….....9 


                       USAID/WNIS Did Not Follow Policy 

                       Regarding Lump-sum Annual Leave Payments…………. ..…….…10 


                       USAID/WNIS Needed Controls on Health Insurance 

                       Reimbursements……………………………….……………………13 


                       USAID/WNIS Did Not Maintain Certified Salary

                       Histories for All Contractors…………...…………….………………..……13


             Management Comments and Our Evaluation… .....………………………………14

             Appendix I – Scope and Methodology…………………… .……………………..17 


             Appendix II- Management Comments………………………..…………………..19 





                                                                                     3

(This Page Intentionally Left Blank)




                                       4

Summary of     This audit was conducted to determine (1) if the USAID Mission for Ukraine,
Results        Belarus and Moldova1 (USAID/WNIS) established its requirements for U.S.
               personal services contractors (USPSCs) in accordance with USAID policies
               and procedures and (2) whether the Mission awarded USPSC contracts in
               accordance with selected policies and procedures (see page 6).

               USAID/WNIS generally complied with USAID policy guidance related to the
               establishment of requirements for USPSCs. For example, the Mission actively
               sought additional U.S. Direct Hire personnel to perform key Mission functions,
               appropriately identified positions that required U.S. citizens, and hired several
               USPSCs locally instead of seeking more costly internationally-recruited
               contractors (see page 6). However, the Mission needs to better document its
               assessment of recruitment options when addressing mission staffing needs (see
               pages 8-9).

               In general, the Mission awarded personal services contracts in accordance with
               USAID policies and procedure (see page 9). In some instances, however,
               USAID/WNIS did not follow all of the specific policies and procedures related
               to contractor benefits. For example, the Mission made payments for annual
               leave accrued by USPSCs that were not justified as required by USAID policy
               (see pages 10-12). In addition, the Mission had not established adequate
               management controls to prevent excess payment of health insurance benefits
               (see page 13). Furthermore, the Mission did not always obtain and maintain
               each contractor’s certified salary history before beginning salary negotiations
               (see pages 13-14).

               This report contains three recommendations to improve the Mission’s
               management of USPSCs (see pages 9, 13 and 14). USAID/WNIS concurred
               with our findings and has taken action to implement the three
               recommendations (see pages 14-15).



Background 	   In December 2000, USAID’s Office of Inspector General (OIG) identified
               human capital management as a serious challenge to USAID's management.
               The OIG recognized that in order for USAID to successfully manage its
               programs, it must have the right people—with the right training and skills—in
               the right places at the right time. Shortly thereafter, the U.S. General
               Accounting Office (GAO) included strategic human capital management as a
               high-risk area for the Federal government. The GAO stated that, after a decade
               of government downsizing and curtailed investments in human capital, the
               human capital strategies of Federal agencies were not appropriately constituted
               to adequately meet the current and emerging needs of the Federal government.


               1
                   These three countries make up the Western Newly Independent States (WNIS).



                                                                                                5

                   According to a USAID report, USAID’s direct-hire staff overseas has
                   decreased by 27 percent between 1992 and 2002, and missions have
                   increasingly relied on the services of U.S. citizens and foreign nationals hired
                   under a variety of mechanisms to manage its day-to-day activities overseas. As
                   a result, U.S. personal services contractors (USPSCs) have become a core part
                   of USAID’s workforce. USAID views these contractors as one of the primary
                   sources of specialized assistance available for designing and implementing
                   development programs.

                   This audit focused on the management of USPSC employees at the Mission for
                   Ukraine, Belarus, and Moldova (USAID/WNIS). USAID/WNIS is a regional
                   mission that funds development programs in the three countries, with FY 2003
                   funding of approximately $70 million, $3.9 million, and $22 million,
                   respectively. As of October 1, 2003, the Mission’s staff included a total of 17
                   approved USPSC positions: 14 in Kiev, Ukraine (3 of which were vacant); 1
                   in Minsk, Belarus; and 2 in Chisinau, Moldova (1 of which was vacant).



Audit Objectives   The Regional Inspector General/Budapest conducted this audit to answer the
                   following questions:

                   •	 Did USAID/WNIS determine its requirement for U.S. personal services
                      contractors in accordance with USAID policies and procedures?

                   •	 Did USAID/WNIS award U.S. personal services contracts in accordance
                      with selected USAID policies and procedures?

                   The audit was conducted as part of a worldwide audit of USAID’s management
                   of personal services contracts. Appendix I discusses the scope and methodology
                   for the audit.



Audit Findings     Did USAID/WNIS determine its requirement for U.S. personal services
                   contractors in accordance with USAID policies and procedures?

                   In general, USAID/WNIS determined its requirements for U.S. personal service
                   contractors (USPSCs) in accordance with USAID policies and procedures.
                   However, to strengthen management controls, the Mission needs to better
                   document its assessment of recruitment options.

                   In September 1995, to address the changing dynamics of its workforce, USAID
                   provided policy guidance in an Agency General Notice entitled Appropriate
                   Use and Funding of USAID’s Non-Direct Hire Workforce. According to this
                   guidance:



                                                                                                 6

   •	 U.S. Direct Hire (USDH) employees should perform the basic work of
      the Agency.

   •	 A USPSC should only be considered when the staffing requirement is
      clearly temporary, when the local recruitment of a U.S. citizen is
      uniquely suitable, or when all alternatives for utilizing USDH
      employees have been exhausted.

   •	 Locally-recruited USPSCs, who receive significantly fewer benefits
      and allowances, should be carefully considered as economical options
      to the more expensive internationally-recruited USPSCs.

   •	 As FSNs are the least expensive component of the overseas workforce,
      they are a resource the Agency should increasingly utilize to
      economically carry out its work.

Consistent with USAID policy, USAID/WNIS made reasonable efforts to
obtain and utilize USDH employees before establishing USPSC positions. For
example, in both its FY 2002 and 2003 Federal Managers’ Financial Integrity
Act reports, the Mission identified the lack of sufficient USDH employees as a
material weakness in an effort to obtain USAID/Washington approval for
additional USDH staff. However, due to USAID’s agency-wide personnel
shortage, this effort led only to the placement of an additional USDH position
in Chisinau, Moldova, and the Mission was required to offset this new position
by eliminating a USDH position in Kiev. As a result, USAID/WNIS has relied
on USPSCs to fill numerous key positions within the Mission, including some
positions that could have been filled by USDH employees, such as the Deputy
Executive Officer and the Country Program Coordinator for Belarus.

In addition, consistent with the policy guidance, the Mission created and filled
locally-recruited USPSC positions for jobs that were either temporary in nature
or required a security clearance. For example, in 2002, the Mission hired a
locally-recruited USPSC as a Business Development Specialist; this position
was clearly temporary and was eliminated in October 2003. In February 2003,
the Mission hired an Executive Specialist to read and categorize the Mission’s
daily message traffic within a secure facility at the U.S. Embassy. This
position required a U.S. citizen with a Top Secret clearance, and the Mission
created and filled a locally-recruited USPSC position.




                                                                              7

USAID/WNIS Needs to Document 

Its Assessment of Recruitment Options 


USAID policy requires the Mission to consider using locally-hired USPSCs
and Foreign Service Nationals (FSNs) as cost-effective alternatives to the more
expensive internationally-recruited USPSCs. However, USAID/WNIS could
not demonstrate that it had always followed this USAID guidance because,
after identifying its staffing requirements, the Mission did not document its
assessment of various non-direct hire recruitment options. As a result,
USAID/WNIS could not provide reasonable assurance that the Mission always
selected the most cost-effective hiring option to meet its staffing needs.

USAID policy regarding the non-direct hire workforce requires managers to
carefully consider all recruitment options after mission hiring needs have been
established. Missions should carefully evaluate their requirements for
internationally-recruited USPSCs, in part because these positions are
considerably more expensive than either locally-hired USPSCs or FSNs.
Locally-recruited USPSCs generally receive more limited benefits than
internationally-recruited USPSCs, while FSNs are usually the least expensive
staffing option.

USAID/WNIS could not demonstrate that it had always followed USAID
guidance to consider the use of locally-hired USPSCs instead of the more
expensive internationally-recruited USPSC to fulfill its hiring needs. As of
October 1, 2003, only 3 of the Mission’s 17 USPSC positions were classified
as locally-recruited positions.    In two recent instances, the Mission had
converted USPSC positions that had been successfully filled through local
solicitation to more expensive internationally-recruited USPSC positions.
Furthermore, the Mission had recruited few local USPSCs even though:

   •	 for all local solicitations of USPSC specialist positions from 1998
      through 2001, the Mission had little difficulty finding qualified
      employees at significantly less cost than international hires, and

   •	 in two cases, local recruiting had been more successful, in terms of the
      number of qualified applicants identified, than international recruiting
      for the same type of position.

Furthermore, the Mission could not demonstrate that it had consistently
followed USAID policy guidance to actively recruit FSNs as economical
alternatives to USPSC employees. For example, in 2002, the Mission hired an
internationally-recruited USPSC as an Information Advisor and a year later,
when the incumbent resigned, the Mission recruited an FSN for the position;
the FSN was hired at a greatly reduced cost. The Mission had not documented
why an FSN had not originally been sought for this position.




                                                                             8

Mission staff stated that for some positions, qualified English-speaking FSNs
might be difficult to recruit. However, the Mission has not yet held a
solicitation for an FSN professional position that failed to identify appropriate
candidates. Recent solicitations for specialist positions in Kiev and in
Moldova resulted in several qualified English-speaking FSN candidates,
suggesting that other such recruitment opportunities might be possible.

In response to these concerns, Mission officials stated that, as a general
practice, prior to each solicitation careful consideration was given to whether
an internationally-hired USPSC, a locally-hired USPSC, or an FSN should be
recruited. The factors considered before making a final decision include
needed skills, the perceived availability of personnel from each job market, and
the availability of funds. These decisions, they added, were not documented
because USAID policy does not require such documentation.

Although USAID policy does not specifically require that the assessment of
recruitment options be documented, a written record of such considerations
would be consistent with the general management principles stated in the ADS
guidance. For example, ADS 596.3 requires USAID managers and staff to
implement appropriate management controls to avoid waste and ensure that
management directives are carried out. ADS 596.6 states that these
management controls should reasonably ensure, among other things, that
regulations are followed and reliable information is obtained, maintained, and
used for decision making. Because USAID/WNIS did not document its
assessments of hiring options and maintain a record of its management
decisions, the Mission could not provide sufficient evidence that it had always
selected the most cost-effective hiring option to meet its staffing needs.

To provide greater assurance that decisions related to USPSC requirements are
consistent with USAID guidance, we are making the following
recommendation:

       Recommendation No. 1: We recommend that USAID/WNIS
       adopt procedures that will document its compliance with
       USAID policy guidance related to the Mission’s non-direct
       hire workforce.


Did USAID/WNIS award U.S. personal services contracts in accordance
with selected USAID policies and procedures?

In general, the Mission awarded personal services contracts in accordance with
selected USAID policies and procedures. In some instances, however, the
Mission did not follow specific policies and procedures related to contractor
benefits.




                                                                               9

USAID’s Acquisition Regulation (AIDAR) Chapter 7, Appendix D contains
the policies and procedures for soliciting and awarding contracts to USPSCs.
Major requirements governing these contracts include:

   •	 USPSC contracts should be solicited with full and open competition
      (unless appropriate waivers are in place).

   •	 Salaries for USPSC positions should be established based on the job’s
      market value.

   •	 Any position determined to be above the GS-13 equivalent and exceeds
      six months in duration must be classified by USAID in Washington.

   •	 The selection of a personal services contractor must be documented and
      justified.

   •	 Contractors can receive a three percent annual salary increase subject to
      satisfactory performance documented in their annual written evaluation,
      but this amount should not exceed the upper limit of the position’s
      market value.

   •	 Fringe benefits, except in certain cases, should be limited to the benefits
      available to U.S. government employees.

USAID/WNIS’ contract files contained appropriate documentation to indicate
that the Mission (1) followed USAID’s procedures related to contract
competition and solicitations, (2) classified position grade levels locally or in
Washington as required, (3) justified and documented the evaluation and
selection of candidates, and (4) determined position salaries, contractor salary
increases, and fringe benefits in accordance with established polices. In some
cases, however, USAID/WNIS did not follow specific procedures related to
USPSC awards and contractor benefits. Some of these deviations from policy
were relatively minor matters and were, therefore, addressed in a separate
management letter. The more significant concerns are detailed below.


USAID/WNIS Did Not Follow Policy
Regarding Lump-sum Annual Leave Payments

USAID policy requires that annual leave not taken by the end of a contract
period be forfeited unless the requirements of the job precluded the USPSC
from taking such leave. Before payment for unused leave can be approved,
USPSCs must develop a leave plan early in their tour of duty and demonstrate
that the planned leave could not be taken due to job requirements. However,
USAID/WNIS could not provide supporting documentation showing that



                                                                              10

contractors had met these requirements for payment, and the evidence suggests
that the Mission had not followed USAID policy to minimize such payments.
As a result, the Mission disbursed approximately $49,500 in unsupported
lump-sum annual leave payments during the past three fiscal years.

Annual leave represents a significant U.S. Government cost; between five and
ten percent of a contractor’s total salary and benefits can be paid for allowable
leave during a contract period. According to AIDAR Appendix D, USPSCs
earn annual leave at the rate of between 13 and 26 workdays per year,
depending on the length of the contractor’s previous service. USAID
regulations require USPSCs to develop a vacation leave schedule early in his
or her tour of duty, and USAID’s USPSC contracts state that all annual leave
not taken by the end of the contract be forfeited unless the requirements of the
job precluded the employee from taking such leave.

In cases where job requirements preclude the USPSC from taking all accrued
annual leave, USAID policy allows the Contracting Officer, with the
endorsement of the Mission Director, to approve one of the following:

   •   leave during the final weeks of the contractor’s contract period, or

   •	 a lump-sum payment for leave not taken, provided such leave does not
      exceed the number of days which can be earned by the employee
      during a 12-month period.

USAID’s Contract Information Bulletin (CIB) 96-19, issued July 12, 1996,
reinforces the requirement for USPSCs to establish a plan to use all leave
during the contract period and discourages the use of lump-sum payments.
According to the CIB:

   •	 every effort should be made to have contractors adhere to leave
      schedules created early in the contract period,

   •	 lump-sum payments shall not be approved unless it can be
      demonstrated that despite every effort all leave could not be
      taken prior to the end of the contract, and

   •	 the practice of routinely approving lump-sum payments for
      unused leave “should cease immediately.”

Our review of 35 files for USPSC contracts that ended between fiscal year
2001 and fiscal year 2003 found that 16 USPSCs (46 percent) had been granted
a lump-sum payment for unused annual leave. The number of annual leave
hours approved for payment ranged from 10 to 156, with an average of 74
hours. These lump-sum payments ranged from $422 to $6,822 for the 16




                                                                              11

former USPSCs in the sample—totaling about $49,500 in excess contract
costs.

Contractors had not adequately supported their requests for lump-sum
payments as required by the contract provisions and USAID policy. For the 16
contractors who were paid lump sum, only 10 contract files contained a
Mission approval for the lump sum payment. Also, none of the payment
requests or approval documents contained evidence that:

   •	 the contractors had developed leave schedules as required by the
      contract, and

   •	 job requirements had interrupted scheduled leave, preventing the
      contractors from using accrued leave before the end of the contract
      period.

Furthermore, the Mission did not follow CIB 96-19 when approving lump sum
payments for annual leave. For example, in at least two cases, the Mission had
approved payments for USPSCs who were resigning in order to take other
employment. In such cases, the reason for not taking leave was personal
preference, not job-related, and therefore would not meet the criteria for
payment. In one additional case, the Mission granted both leave in the
concluding weeks of the tour and a lump-sum payment—even though the
AIDAR and the contract allow for only one or the other of these compensation
methods.

The evidence also suggests that the Contracting Officer and Mission Director,
contrary to CIB 96-19 policy, routinely approved requests for lump-sum
payments for accrued leave, adding additional costs to the contracts involved.
Of the ten requests found in contractor files, all were approved for lump-sum
payments.

These routine payments occurred because the USPSCs did not follow the
relevant contract provisions regarding planning for the use of leave and
because neither the Contracting Officer nor the Mission Director followed
USAID’s CIB 96-19 policy with regard to granting lump-sum payments. As a
result, USAID/WNIS added additional costs to the contracts.

If the Mission’s 12 current USPSC contractors make claims at the same rate as
our sample of 35 former contractors, the Mission would pay nearly $17,000 in
additional lump-sum claims. In our opinion, by fully implementing USAID
policy so that such payments become, as envisioned by the CIB, the exception
and not the rule, most (if not all) annual leave payments will be avoided.

We are therefore making the following recommendations:




                                                                           12

       Recommendation No. 2: We recommend that the Mission
       Director, USAID/WNIS, establish procedures to ensure
       compliance with USAID policies and USPSC contract
       provisions related to annual leave lump-sum payments.


USAID/WNIS Needed Controls on
Health Insurance Reimbursements

Contractor health insurance benefits vary according to family size and may be
limited by the employee’s marital or retirement status. According to the
AIDAR, Chapter 7, Appendix D contractors can receive reimbursement for up
to 50 percent of their health insurance payments although such payments may
not exceed the maximum U.S. Government insurance contribution for direct-
hire personnel (currently $2,050 for single individuals and $4,575 for
contractors with families). These benefits, however, are not available to
USPSCs who are covered by a spouse’s U.S. government health care plan.
Furthermore, retired U.S. government employees must prove that their current
insurance does not provide coverage overseas before they can receive any
benefits.

USAID/WNIS did not have procedures in place to determine each USPSC's
allowable health care benefit based on family size, marital status, or retirement
status. Although three of the ten current USPSCs had exceeded the
reimbursement ceiling for individuals, the Mission had not verified their
eligibility for these benefits. One of these contractors was single but had
received the higher benefit level only allowed to contractors with families.
When notified of this error, the Mission immediately took action and sought
collection of all benefit costs beyond the maximum allowable.

Before the audit fieldwork was completed, the Mission developed new control
procedures for determining USPSC eligibility for health insurance benefits and
ensuring that such benefits do not exceed the established maximum amounts.
Because the control weakness was immediately and adequately addressed by
the Mission during the audit, we are not making a recommendation regarding
this issue.


USAID/WNIS Did Not Maintain 

Certified Salary Histories for All Contractors 


According to AIDAR Chapter 7 and related guidance, a signed Standard Form
(SF) 171 Application for Federal Employment or Optional Form (OF) 612,
Optional Form for Federal Employment must be submitted by each applicant
and retained in the contract file. The salary information on these forms, along



                                                                              13

                  with the market value of the position, is used for salary negotiations by the
                  Contracting Officer. USAID requires these specific forms because each form
                  contains a penalty clause for any false statements. (In the past, some applicants
                  had inflated their past salary histories to negotiate a higher salary with
                  USAID.)

                  Five of the twelve contractor files reviewed did not contain signed SF 171 or
                  OF 612 forms. In four of these cases, unsigned copies of the forms were
                  present; one file contained only an email from the applicant stating a previous
                  salary level. Such documentation does not comply with USAID policy and
                  does not provide the level of assurance offered by fully certified salary
                  histories containing penalty clauses for false statements.

                  According to Mission personnel, these discrepancies may have occurred
                  because some personnel had been unaware of the need to check for the
                  signature. To ensure appropriate management attention to this problem we are
                  making the following recommendation:


                         Recommendation No. 3: We recommend that USAID/WNIS
                         obtain and maintain certified statements of past salary
                         history for all USPSC contractors in the format mandated
                         by USAID policy.



Management        In response to our draft report, USAID/WNIS concurred with our findings and
                  described actions taken to address the three recommendations.
Comments and
Our Evaluations   To address Recommendation No. 1 the Mission implemented the use of a
                  checklist for categorizing new positions at the Mission. The checklist is a
                  written record that documents all the factors considered before making a final
                  decision to hire a U.S. Direct Hire, FSN, locally-recruited USPSC, or
                  internationally-recruited USPSC.

                  In response to Recommendation No. 2, the Mission issued an action
                  memorandum, signed by the Mission Director, which establishes guidance to
                  ensure that all lump sum payments for unused annual leave comply with
                  USPSC leave policies.

                  To address Recommendation No. 3, the Mission developed standard
                  solicitation language stating that unsigned SF 171 and OF 612 forms will not
                  be accepted. In addition, the Mission updated its Employee File Checklist to
                  ensure that Mission personnel confirm that each file contains a signed form.
                  Finally, the Mission will also request and retain copies of USAID Form 1420-




                                                                                                14

17, which contains a clear definition of past salary and a penalty clause for
false statements.

The Mission provided adequate documentation showing that each proposed
action has been implemented. Therefore, we consider that final action has
been taken on all recommendations.

Management comments are presented at Appendix II.




                                                                          15

(This Page Intentionally Left Blank)




                                       16

                                                                                  Appendix I

Scope and     Scope
Methodology
              OIG’s Regional Inspector General, Budapest, audited USAID/WNIS'
              management of USPSCs in accordance with generally accepted government
              auditing standards. We conducted the audit at USAID/WNIS in Kiev, Ukraine,
              from October 6 through November 26, 2003. The audit focused on the Mission’s
              USPSC requirements-determination process, its method of solicitation, contract
              awards, and compensation of USPSCs on staff at the Mission as of October 1,
              2003. To provide an adequate sample size, we included all Mission USPSCs
              hired as of Fiscal Year 2001, for tests of (1) local USPSC and FSN hiring
              practices, and (2) annual leave lump-sum payments.

              This audit included an examination of management controls, including those
              associated with determining Mission staffing needs and the Mission’s
              competitive procurement of, setting of salaries for, and awarding of fringe
              benefits to USPSCs. These controls included the Mission’s strategic plan and
              the Mission’s annual report, which address the allocation of USDH, USPSC
              and FSN staff. Management controls over USPSCs include the guidance
              contained in the USAID Acquisition Regulation (AIDAR) Chapter 7,
              Appendix D, various contract information bulletins, and acquisition and
              assistance policy directives. In planning the audit, we considered prior relevant
              audit findings related to USAID’s human capital.

              Methodology

              This audit was designed to ascertain (1) if USAID/WNIS determined its
              requirement for U.S. personal services contractors in accordance with USAID
              policies and procedures and (2) if USAID/WNIS awarded U.S. personal
              services contracts in accordance with selected USAID policies and procedures.

              In order to achieve the objectives of this audit, we interviewed officials from
              USAID/WNIS regarding the requirements-determination process for USPSCs,
              and collected and evaluated related documents. We also reviewed contractor files
              to (1) assess general management controls over the Mission’s USPSC
              recruitment, solicitation and compensation processes, (2) determine compliance
              with specific solicitation, hiring and compensation policies and procedures, and
              (3) provide reasonable assurance that fraudulent acts did not take place.
              Specifically, we:

                 •	 reviewed contracts files for evidence of appropriate competitive
                    procedures, such solicitation on the Agency web site, or appropriate
                    waivers;




                                                                                            17

    •	 determined if salaries for USPSC positions were established based on
       the job’s market value in the United States and a certified salary history
       and verified that a signed negotiation memorandum justifying the
       awarded salary was present;

    •	 verified that the salary stated in each contract aligned with the
       appropriate GS schedule for the year of hire;

    •	 confirmed that positions were classified according to applicable USAID
       policies and procedures and verified that the classification records were
       maintained in each contractor folder;

    •	 confirmed that the selection of each contractor was justified and
       appropriately documented and, ensured that a signed selection
       memorandum in the appropriate format was contained in each contract
       file;

    •	 reviewed the amount and justification for any contractor salary
       increases and verified current approved salary against the most current
       disbursement data; and

    •	 determined the level of and justification for any fringe benefits,
       including annual leave and health insurance reimbursements and
       verified the disbursement records against payment approval
       memoranda.

We developed materiality thresholds for discrepancies identified during this
audit for the 13 filled contractor positions at the Mission as of October 1, 2003.
Specifically, we determined that for USPSC requirements, one case of non-
compliance (which would represent about 7.5 percent of the sample) would
represent a material condition. For procedural issues, all conditions that may
have reduced competition or significantly increased costs to the U.S.
government, in the opinion of the auditors, were considered reportable. Audit
findings related to record-keeping and contractor file maintenance were deemed
reportable only if they occurred in more than 2 cases (about 15 percent) of the
sample or represented significant costs to the U.S. government.




                                                                               18

                                                                                            Appendix II

Management            Note: Management comments regarding Recommendation No. 3 address an
Comments              issue included in the draft report but not contained in the final report.


                                                            .
                      United States Agency for International Development
                                Regional Mission for Ukraine, Belarus and Moldova




February 12, 2004

Nancy Lawton 

Regional Inspector General 

Budapest, Hungary 



               Subject:	 Response to Draft Report of the audit of USAID Mission for Ukraine, Belarus
                         and Moldova’s management of Personal Service Contractors – Report No. B-
                         121-04-00x-P, drafted January 14, 2004.

Dear Ms. Lawton:

Thank you for allowing us the opportunity to review the subject draft report and for the professional
and cooperative way in which the audit was conducted. We believe the results of the audit will
improve Mission management of US Personal Service Contracts.


Following are our comments and a summary of actions taken on the four recommendations included
in the draft report:


Recommendation No. 1:
We recommend that USAID/WNIS adopt procedures that will document its compliance with USAID
policy regarding the use of its non-direct hire workforce.


We concur with the finding and have taken the following action to address the recommendation:

The mission has implemented the use of a checklist for categorizing new positions. The checklist is a
written record that documents all the factors considered before making a final decision of whether to




                                                                                                    19

hire a Direct Hire, FSN, Local Hire USPSC, or Off-Shore USPSC. This check list is attached (See
attachment A).

Recommendation No. 2:

We recommend that the Mission Director, USAID/WNIS establish procedures to ensure compliance
with USPSC leave policies.

We concur with the finding and potential savings. Mission has taken the following action to address
the recommendation:

Attachment B is an action memorandum, signed by the Mission director that establishes strict
guidance to ensure that all lump sum payments for unused annual leave comply with USPSC leave
policies.

Recommendation No. 3:

We recommend that the cognizant USAID/WNIS Contacting Officer determine the allowability of,
and collect as appropriate, questioned costs related to payments for accrued annual leave.

We concur with the finding and have taken the following action to address the recommendation:

Attachment C is an action memorandum, signed by the cognizant Contracting Officer which makes a
determination of allowability for each of the questioned costs related to payments for accrued annual
leave

Recommendation No. 4:

We recommend that USAID/WNIS obtain and maintain certified statements of past salary history for
all USPSC contactors in the format mandated by USAID policy

We concur with the finding and have taken the following action to address the recommendation:

Effective immediately all USPSC solicitations for applications will include the following language:

 “Applicants shall submit Optional Form OF-612, Resume and 3 references including full name,
telephone number and address. (Note: applicants who submit the SF-171 and 3 references will be
considered as having submitted the proper forms for consideration. However, since the SF-171 has
been updated through the OF-612, candidates should strive to submit, using the OF-612 and attaching
a resume). The OF-612 form is located at the USAID Agency website: www.usaid.gov, click on
USAID Forms. Applicants shall sign the application form. Unsigned OF-612 or SF-171 forms shall
not be accepted and therefore applicants shall not be considered for the advertised position.”

Additionally, as part of the normal practice of the mission, a standard offer letter is sent to each
successful candidate. The offer letter (Attachment D) requests a Biodata Sheet (AID 1420-17). This
Biodata Sheet is a certified statement of the Contractor’s past salary history. To ensure that Biodata



                                                                                                      20

sheets are received for each USPSC employee, our Employee File Checklist has been modified to
include a check for the Biodata sheet (Attachment E). We use this form for salary negotiation
purposes because it contains the definition of salary (which excludes bonuses, profit-sharing
arrangements, commissions and consultant fees, extra or overtime work payments, oversees
differential, or quarters, cost of living or dependent education allowances).

Since management action has been taken on each of the findings in the draft report, we request that
each of the recommendations be closed upon issuance of the final report.


Sincerely,




Christopher D. Crowley
Mission Director




                                                                                                      21

                                                                                                              Attachment A
                                     Staffing Categorization Checklist

Position:______________________                              Date ______________________

   1.    Does the position meet the definition of a core activity position? Would this person direct or have responsibility
         for the design, implementation, support, or evaluation of the mission’s program?

                                             Yes              No

      If yes, go to question #2, if not, please explain and go to question #3.
    _________________________________________________________________
    _________________________________________________________________
    _________________________________________________________________

   2.    Is it possible to fill this position with a Direct-Hire employee?

                                       Yes              No

      If not, please explain
    _________________________________________________________________
    _________________________________________________________________
    _________________________________________________________________

   3.    Is it possible to fill this position with an FSN employee?

                                       Yes              No

      If not, please explain
    _________________________________________________________________
    _________________________________________________________________
    _________________________________________________________________


   4.    Is it possible to fill this position with a locally recruited USPSC?

                                       Yes              No

      If not, please explain
    _________________________________________________________________
    _________________________________________________________________
    _________________________________________________________________

   5.    Based on the above, the following category of staff is recommended:

        USDH        FSN        Internationally Hired USPSC          Locally Hired USPSC



OD:____________________________                 D/Dir:____________________________
          Name/ Signature                                    Name/ Signature




                                                                                                                          22

                                                                              Attachment B


                 United States Agency for International Development
                           Regional Mission for Ukraine, Belarus and Moldova



                      Action Memorandum to the Mission Director

To:           Christopher D. Crowley, Mission Director

Date:         February 9, 2004

Subject:      USPSC compensation for Annual Leave

Reference:    December 2003 Audit finding


Purpose:

To clarify the Mission policy on lump-sum payments or end of contract leave granted to USPSC
employees for annual leave remaining at the termination of their contracts and ensure that mission
application of this policy complies with the standard provisions of the USPSC contracts, CIB 96-19
and AIDAR Appendix D.

Background:

It has been the mission practice to compensate USPSC employees for annual leave balance remaining
at the time of contract termination. This was annual leave the employees were unable to schedule
before the completion of their contracts. In most cases, the employees verbally discussed their leave
plans with their supervisors, but were unable to schedule all accrued leave before the end of their
contract due to workload demands.

Over the course of three years, twelve payments totally $27,861 were made to USPSC employees.
Four employees were allowed to take vacation days to the close of their contracts (including one
employee who was allowed to take vacation days at the close of his contract, as well as lump-sum
payment for those days he did not take).

Discussion:

The standard leave clause of the USPSC contract states the following:

The Contractor in consultation with the USAID Mission shall develop a vacation leave schedule early
in his/her tour of duty taking into consideration project requirements, employee preference and other



                                                                                                     23

factors. All vacation leave earned by the contractor must be used during his/her tour of duty. All
vacation leave earned by the contractor but not taken will be forfeited unless the requirements of the
activity precluded the employee from taking such leave and the Contracting Officer, with the
endorsement of the Mission Director, approves one of the following options:

   1. Taking leave during the concluding weeks of the employee’s tour, or
   2.	 Lump-sum payment for leave taken, provided such leave does not exceed the number of days
       which can be earned by the Contractor during a twelve month period.

The Regional Inspector General/ Budapest conducted an audit of our USPSC contracts for calendar
years 2001 through December 2003. In the draft audit report dated January 14, 2004, the auditors
found that 46 percent of the USPSCs had been granted lump-sum payments. In each case, the files
contained no evidence that the prerequisite leave plan had been completed, nor was there
documentation to demonstrate that job requirements had disrupted these plans. In at least two cases,
employees were resigning to take other jobs, indicating that the inability to take their leave was a
personal preference and not job-related.

In examining the practice of the Mission, the auditors referred to the 1996 CIB directive admonishing
Missions not to routinely approve the lump-sum payments to USPSC employees or allowing annual
leave to be taken in the concluding weeks of the employee’s tour. That directive states this practice
“should cease immediately.” Approval cannot be granted unless it can be demonstrated that, despite
every effort, all leave could not be taken prior to the end of the contract.

As a result of the finding above, the auditors have made the following recommendation:

“We recommend that the Mission Director, USAID/WNIS establish procedures to ensure
compliance with USPSC leave policies.”

In order to address this issue adequately, the Mission needs to ensure it is in compliance with existing
regulations, which require adequate documentation to support that leave was scheduled in writing,
cancelled due to specific work demands, and that attempts were made to reschedule the leave. Once
documentation exists to substantiate this, then the final step requires the approval of the Contracting
Officer and the endorsement of the Mission Director.

Action:

Effective immediately, in compliance with USPSC leave policies and to avoid the appearance that
annual leave is routinely compensated through lump-sum payments or leave days at the end of the
contract, the following documentation is required prior to such payments:

   •	 Evidence that the leave was scheduled early in the tour of duty, taking into consideration
      project requirements, employee preference and other factors.
   •	 Documentation (including copies of emails and/or leave request forms) between the employee
      and their supervisor that substantiates that the leave was canceled due to exceptional or
      emergency work demands.




                                                                                                      24

   •	 Documentation that supports a good-faith attempt on the part of the employee to reschedule
      the annual leave for another date before the termination of the contract.
   •	 A written request from the employee describing the events which precluded the employee
      from taking their leave balance. This request must be approved by the Contracting Officer and
      have the concurrence of the Mission Director.




Approved: _______________________          Disapproved:_________________________
          Christopher D. Crowley                        Christopher D. Crowley
          Mission Director                              Mission Director


Date:   ________________________




                                                                                                 25

                                                                                          Attachment D

                  United States Agency For International Development
                         Regional Mission For Ukraine, Belarus and Moldova


                                                             September 3, 2003


Dear Ms. …:

This is in reference to your application for the position of Elections and Political Processes Advisor
with the United States Agency for International Development in the field program office in Kiev,
Ukraine. This letter constitutes our salary and benefits package offer.

This is a USPSC graded GS-15 position. The salary range for this position is $85,140-$110,682.
Based on confirmation of your last base salary we can offer you the amount of $ 97,335 per year. We
need you to submit a Biodata Sheet (AID 1420-17) for our files. In addition, Ukraine has a post
differential of 20% which is approximately an additional $19,467 per annum added to the base salary.
Total compensation of salary with differential is thus $116,802 (subject to tax). Ukraine has a Cost of
Living Allowance (COLA) which equates to the amount of $1,530 per year. A fully furnished
apartment with appliances will be provided and all utilities, except personal telephone costs, are paid
by the mission. The term for this contract would be 2 years from the initial start date.

As an offshore hire USPSC, you are authorized a shipment of NTE 7,200 pounds of HHE (net) and
storage NTE 10,800 lbs.; shipment of one POV and airfreight (UAB) 250lbs. (gross). Ukraine is a
consumables post and the allowance is 2,500 lbs. weight net to be shipped for a 2 year contract.
Shipment of UAB must be initiated within 30 days of arrival at post. Shipment of HHE and
consumables must be initiated within the first 360 days at post.
You are eligible for reimbursement of a portion of your health and life insurance costs. (Please note:
retired U.S. Government employees shall not be paid additional contributions for health or life
insurance under their contracts. The Government will normally have already paid its contribution for
the retiree unless the employee can prove to the satisfaction of the Contracting Officer that his/her
health and life insurance does not provide or specifically excludes coverage overseas). The
contribution for health and life insurance under the proposed contract shall not exceed 50% of the
actual costs and are also subject to dollar ceilings set by the Agency. The current health insurance
dollar ceilings on an annual basis are (a) not to exceed $2,050 for contractor only, and (b) not to
exceed $4,575 for contractor with family. The current life insurance dollar ceiling is $500.00/annum.

Annual and sick leaves are accrued at a rate 4 hours every two weeks. A higher rate (6 hours) is
 possible if you have documentation to show previous service of at least 3 years as a USAID PSC
 employee and 8 hours if you have previously served at least 15 years as a USAID PSC employee.
 Our review of your application indicates that you are eligible for 4 hours of annual leave per pay
 period.




                                                                                                         26

All USPSCs must have both shown proof of health insurance and medevac (medex) insurance prior to
coming to post. Insurance must cover both employee and family members accompanying on orders.
Medex insurance can be obtained from MEDEX Assistance Corporation, P.O. Box 5375, Timonium,
MD 21094-5375; by calling: (800) 537-2029 (toll-free in U.S.) or (410) 453-6300; by telefaxing:
(410) 453-6301; or by emailing: operations@medexassist.com and is reimbursable upon
presentation of receipt and voucher.

This offer is contingent on receipt of a) medical clearance from the Department of State Office of
Medical Services for employee and dependents and b) security clearance for employee only from the
Office of Security, Agency for International Development and c) final signed contract between the
contracting official here in Kyiv and yourself. You are required to obtain a security and medical
clearance prior to our executing a contract with you. You should not give any notice or make plans to
leave your current location until you receive final authorization from us that all clearances are
received and a contract is finalized. Should you accept our offer letter, a pre-contract authorization
letter will be provided to cover specified costs for medical clearances for yourself. No other pre-
contract costs except those specified in the letter will be reimbursed.

We are pleased that you are interested in joining the USAID team. Please sign this letter and return it
to us if you accept our offer. Once acceptance from you has been received, we will send you a pre-
contract letter authorizing you to proceed with your medical and security clearance processes. Also
will be happy to answer any further questions you may have. You can call us at 380-44-4625678 and
ask to speak to Victoria Grib, Personnel Officer or contact her at vgrib@usaid.gov. Thank you.



                                                  Sincerely,




                                                  Donella Russell

                                                  Regional Contracting Officer 


Acceptance of Offer:

I hereby certify that I accept this offer: _________________                Date:___________




                     Kyiv: Nyzhny Val 19; 04071 Ukraine, Phone/Fax:(380) 44-462-5678/462-5834 

               Minsk: 46 Starovilenskaya Str., 220002, Belarus. Phone/Fax:(375) 172-210-12-83/234-7853 

         Chisinau:57/1, Banulescu Bodoni; ASITO 5th Fl.; 2005, Moldova. Phone/Fax: 810-3732-237-460/237277 





                                                                                                               27

                                                                            Attachment E
                                US PSC CHECKLIST


Contract No:_______________________________

Name:_______________________________

Position: ___________________________________

Date:_______________________________

Signed by:___________________________________

Contract Period:________________________


Total Estimated Cost:___________________


1.   Contracting Officer has sufficient authority:                   Y ___/ N ___

2.   Contractor has signed the contract                              Y ___/ N ___

3.   Funds available dated prior to CO signature                     Y ___/ N ___

4.   Statement of duties establishes an employer/employee            Y ___/ N ___
     relationship

5.   Market value of the job has been established consistent with    Y ___/ N ___
     GS level

6.   Salary is set in accordance with market value adjusted in       Y ___/ N ___
     accordance with Appendix D
     OR
     Mission Director has approved exception

7.   Announcement of the position is in file. Renewals or            Y ___/ N ___
     extensions for the same position do not need to be publicized


                                                                                      28

     OR
     At least 3 viable individuals were considered by               Y ___/ N ___
     consulting other source lists

8.   Selection memo with results of interviews (including           Y ___/ N ___
     names and rankings) are included in file.
9.   File contains a signed SF-171 or OF-612 from the Contractor    Y ___/ N ___

10. File contains a signed Biodata sheet (ROD1470-17)               Y ___/ N ___

11. A copy of the class justification is in the file, if limited    Y ___/ N ___
    competition was used.

12. The CO's certification that the contract is awarded pursuant    Y ___/ N ___
    to AIDAR 706. 302- 70 (b) (1), that its conditions were met,
    and the cost is fair and reasonable (may be included in neg
    memo)

13. If limited competition was not used, the file contains a Sole   Y ___/ N ___
    Source Justification

14. As applicable, file contains:

         a. Security clearance                                      Y ___/ N ___


         b .Medical clearance                                       Y ___/ N ___

         c. Names to be notified in an emergency                    Y ___/ N ___

        d. Approved deviations, if any                              Y ___/ N ___


        e. For procurement officials, Procurement Integrity         Y ___/ N ___
          Certification (may be elsewhere in Mission)

        f. A record that Agency conflict of interest                Y ___/ N ___
           requirements have been met.

        g. Completed W-4 Form                                       Y ___/ N ___




                                                                                   29

15.
      A negotiation memorandum is in the file discussing:
        a. Number of applicants and how they were screened to          Y ___/ N ___
          the interview level.
         b. How the Contractor was selected.                           Y ___/ N ___

         c. How the salary level for the Contractor                    Y ___/ N ___
            was established.
         d. Explains any other negotiated costs.                       Y ___/ N ___
         e. A determination that the cost is reasonable.               Y ___/ N ___
16. The file contains only one contract.                               Y ___/ N ___

17. The contract covers only one position.                             Y ___/ N ___

18. The Checklist for Personal Services Contracts is in the file and   Y ___/ N ___
    checked accurately.

19. Contracts are replenished by recurrent obligations                 Y ___/ N ___
     AND
                                                                       Y ___/ N ___
    Amendments are issued at least semiannually to reflect
    current total estimated costs and current obligations
    OR                                                                 Y ___/ N ___
    Contracts are incrementally funded.

20. The Contract has Medevac insurance                                 Y ___/ N ___

21. General Quality or Other Comments:




                                                                                      30

